INDEX TO APPENDIX
Sequential No.
In Document
Page numbers at top of page:
Appendix A: June 26, 2019 “final” decision by the
Ninth Circuit denying Kinney’s timely request
for permission to appeal based on its own 2018
VL pre-filing review order and citing the In re
Thomas case (with its “so insubstantial”
rationale) which has been routinely used to
dismiss Kinney’s appeals [Ninth Circuit No. 191
15565, Dk #3]
Appendix B: Feb. 26, 2019 dismissal order by
USDC Judge Donato based on his own pre-filing
review of Kinney’s Bivens complaint against the
only defendant, Judge Gutierrez, by using a 2018
VL order from Judge Chen [USDC No. 19-80021,
3
Dk #4]

1

APPENDIX A
Case: 19-15565

06/26/2019

DktEntry: 3

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
CHARLES G. KINNEY
Plaintiff-Appellant,
v.

No. 19-15565
D.C. No. 3:19-mc-80021
Northern Dist. of Cal., SF

PHILIP S. GUTIERREZ,
U.S. District Court Judge,
Defendant-Appellee.
FILED
JUN 26 2019
MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS
ORDER
Before: CLIFTON, N.R. SMITH, and
FRIEDLAND, Circuit Judges.
This court has reviewed the notice of appeal
filed March 19, 2019 in the above-referenced
district court docket pursuant to the pre-filing
review order entered in docket No. 17-80256.
Because the appeal is so insubstantial as to not
warrant further review, it shall not be permitted
to proceed. See In re Thomas, 508 F.3d 1225 (9th

4

2

Cir. 2007). Appeal No. 19-15565 is therefore
dismissed.
This order, served on the district court for
the Northern District of California, shall
constitute the mandate of this court.
No motions for reconsideration, rehearing,
clarification, stay of the mandate, or any other
submissions regarding this order shall be filed or
entertained.
DISMISSED.

3

APPENDIX B
Case 3:19-mc-80021-JD Doc.4 Filed 02/26/19
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF CALIF.
CHARLES KINNEY,
Plaintiff,
v.
PHILIP S. GUTIERREZ
Defendant.
Case No.l9-mc-80021-JD
ORDER RE PREFILING REVIEW
Plaintiff Charles Kinney is subject to a
vexatious-litigant order in this district. Dkt. No.
56 in Case No. 18-cv-01041-EMC. Among his
many earlier lawsuits is a case against the
Honorable Philip S. Gutierrez, United States
District Judge in the Central District of
California, related to Kinney’s real property in
Los Angeles. See Dkt. No. 53 at 4-5 in Case No.
18-cv-01041-EMC. Judge Edward Chen imposed a
pre-filing review requirement for any further suits
in our district related to that property or
associated court proceedings.
The Court has reviewed the proposed
complaint lodged under this case name and
number, and finds that it falls within the scope of
the vexatious-litigant order. Kinney again sues

4

Judge Gutierrez in relation to his Los Angeles
property, and again challenges the orders against
him in the earlier actions. See, e.g., Compl.
5-6,
19.
Consequently, the complaint may not be
filed. The Clerk of Court is directed to close this
matter.
IT IS SO ORDERED.
Dated: February 26, 2019
s/
JAMES DONATO
United States District Judge
Page 2
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF CALIFORNIA
CHARLES KINNEY,
Plaintiff,
v.
PHILIP S. GUTIERREZ,
Defendant.
Case No. 19-mc-80021-JD
CERTIFICATE OF SERVICE

1

5

I, the undersigned, hereby certify that I am
an employee in the Office of the Clerk, U.S.
District Court, Northern District of California.
That on February 26, 2019, I SERVED a
true and correct copy(ies) of the attached, by
placing said copy(ies) in a postage paid envelope
addressed to the person(s) hereinafter listed, by
depositing said envelope in the U.S. Mail, or by
placing said copy(ies) into an inter-office delivery
receptacle located in the Clerk's office.
Charles Kinney
5826 Presley Way
Oakland, CA 94618
Dated: February 26, 2019
Susan Y. Soong
Clerk, United States District Court
By:____ s/________________ ■

LISA R. CLARK, Deputy Clerk to the
Honorable JAMES DONATO

1

